No. 19-241

3itt 1je Supreme Court of the Elea Otateci
UMB BANK, N.A., et al,
Applicants,
v.
LANDMARK TOWERS ASSOCIATION,INC.,
Respondent.
Certificate of Service

I, Nelson Boyle, a member of the Bar of the United StatesSupreme Court,
certify that on September 13, 2019, as required by Supreme Court Rule 29, I
caused the attached motion for extension of time to be electronically filed with
the Clerk of he United States Supreme Court, and to be served onthe Petitioners
in the above-captioned proceeding, via electronic mail and by depositing copies of
the same by FedEx overnight courier, as follows:
Counsel for Respondent Landmark Towers Association, Inc.:
Neil L. Arney
Mia Della Cava
Kutak Rock
1801 California Street, Suite 3000
Denver, Colorado 80202-2626

And Marin Metropolitan District, a Colorado special district':
Kimberly A. Bruetsch
Robinson Waters & O'Dorisio, P.C.
1099 18th Street, Suite 2600
Denver, Colorado 80202

Respectfully submitted,
Nelson Boy e
Counsel ofRecord
Burg Simpson
Eldredge Hersh & Jardine, P.C.
40 Inverness Drive East
Denver, Colorado 80112
(303) 792-5595
Counselfor Landmark Towers Assn.
September 13, 2019

